           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
     MANAGING AND MONITORING OF
            LOCAL PROFILES


     July 2011        A-14-10-20106




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      July 13, 2011                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Managing and Monitoring of Local Profiles
           (A-14-10-20106)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           managing and monitoring of nonfinancially significant local profiles1 compromised the
           security of its information; information systems; personnel; or other resources,
           operations, or assets.

           BACKGROUND
           SSA policy states that controlling and limiting access to the Agency’s information
           systems and resources is the first line of defense in ensuring the confidentiality,
           integrity, and availability of the Agency’s information technology (IT) resources.2

           SSA’s systems access policy is built on the access control principles of least privilege 3
           and need to know. 4 SSA uses TOP SECRET, a commercial access control package
           modified to fit SSA’s unique requirements, to control access to SSA’s computer



           1
             We define nonfinancially significant local profiles as profiles that allow access to datasets in applications
           that would not materially affect SSA’s financial statements. Profiles that allow update or greater access to
           datasets in applications that would materially affect SSA’s financial statements are defined as financially
           significant.
           2
            SSA, Information Systems Security Handbook (ISSH), version 1.5, section 2.1, Systems Access Policy:
           Purpose, page 9.
           3
             Granting users access only to the applications, transaction screens, and information systems they need
           to perform their official duties.
           4
             The legitimate requirement of a person or organization to know, access, or possess sensitive or
           classified information that is critical to the performance of an authorized, assigned mission.
Page 2 - The Commissioner


systems. The Agency’s users must have an identification (ID), password, and profile 5
to gain access to SSA’s computer systems.

IDs and Passwords

SSA has two types of IDs: a personal identification number (PIN) for those who need to
access SSA’s computer systems and a User Identification (UserID) that is primarily for
technical personnel. Additionally, a subset of technical personnel who may need to
update files or records in a production dataset 6 do so by using an additional, restricted
UserID, called a secondary UserID. The secondary UserID allows the Agency to
monitor those with update access to its production datasets.

Profiles

Profiles provide the Agency an effective way of grouping users who share common
system access needs, while maintaining individual accountability necessary for a secure
computer environment. The Agency groups users by basic job positions and creates
positional profiles 7 for each of these basic jobs. For example, a claims representative
has a claims representative positional profile. To comply with the principles of least
privilege and need to know, SSA’s security officers 8 assign a positional profile to every
user’s PIN. Security officers assign a positional profile to those users who also
have UserIDs.

Another type of profile is the functional profile, which the security officer can assign to
PINs or UserIDs. Functional profiles allow users to perform specific duties by granting
access to just those transactions or data files needed to accomplish a function not
addressed by their positional profile. Some users may have multiple functional profiles
assigned to their PIN/UserID in addition to their positional profile. For example, we
found that staff who had functional profiles granting them greater than read access to
datasets had more than one functional profile assigned to their UserID.

Profiles can also be categorized by ownership. Profiles are either corporate or local. A
corporate profile has gone through multiple component processes and approvals to
ensure proper access to IT resources. A security officer cannot directly create or modify
a corporate profile. Instead, the security officer must submit any profile creation or
modification request through the multi-component approval process. The Agency

5
 Standardized Security Profile Project (SSPP), Building Production Dataset Profiles, version 2.2,
pages 2 and 3.
6
 A dataset is a collection of logically related data records and can contain application data or information
such as source programs, macro libraries, and system variables. Applications that are critical to the
Agency’s daily business use production datasets.
7
    A positional profile determines what access to systems resources each position needs.
8
  The security officers are the individuals responsible for implementing SSA's security policies within their
respective component.
Page 3 - The Commissioner


considers any profile that goes through this formal, multi-component approval process
to be locked-down.

Unlike corporate profiles, which are owned by the Office of Telecommunications and
Systems Operations, each Agency component can create and own local profiles. SSA
does not consider local profiles locked-down because the profile did not go through the
formal, multi-component approval process. Some components have a business need to
maintain a number of local profiles for technical personnel to make emergency changes
to systems, applications, or data. At times, components use local profiles because the
formal, multi-component approval process for a corporate profile cannot always be
completed in time to meet the emergencies that occur.

PRIOR AUDIT FINDINGS

Our Fiscal Year (FY) 2009 financial statement audit identified a significant deficiency9 in
the Agency’s control of access to its information. We reported that the IT resources
contained in both corporate and local profiles were not reviewed periodically. In
addition, testing disclosed the Agency could not ensure that employees and contractors
were given least privilege access to perform their job responsibilities. Thus, we
recommended that SSA implement a policy requiring a periodic review of profile
contents. In the FY 2010 financial statement audit, Grant Thornton, LLP continued to
identify a significant deficiency in SSA’s access controls to its information. 10 The
auditors continued to report the significant deficiency because the Agency had not
completed its efforts to correct the access control weaknesses identified in FY 2009.

One of the weaknesses reported in FY 2009 stated that the Agency had not properly
managed and monitored financially significant 11 local profiles. Our testing of FY 2009
nonfinancially significant local profiles was limited; therefore, we initiated this review to
determine whether nonfinancially significant local profiles compromise the security of
the Agency’s information; information systems; personnel; or other resources,
operations, or assets. Although we limited the focus of this review to SSA’s
management and monitoring of nonfinancially significant local profiles, our prior financial
statement audit work identified similar access control weaknesses for financially
significant profiles (both local and corporate).

To achieve our objective, we randomly selected and examined a number of
nonfinancially significant local profiles. For more information about our scope and
methodology and our sampling methodology, see Appendices B and C, respectively.




9
    SSA OIG, Fiscal Year 2009 Financial Statement Audit (A-15-09-19124), November 9, 2009.
10
     SSA OIG, Fiscal Year 2010 Financial Statement Audit Oversight (A-15-10-10113), November 8, 2010.
11
     See Footnote 1.
Page 4 - The Commissioner


RESULTS OF REVIEW
In our review of SSA’s process for managing and monitoring nonfinancially significant
local profiles, nothing came to our attention that compromised the security of the
Agency’s information; information systems; personnel; or other resources, operations,
or assets. Although the population of local profiles decreased from 2009 to 2010 and
the Agency plans to decrease them further, any mismanagement of these profiles could
present an opportunity for those knowledgeable of access control vulnerabilities to
compromise SSA data. We believe the possibility of a compromise will diminish if SSA
implements its plans to decrease the number, and restrict the use of, local profiles.

Further, SSA has made significant improvements regarding its management and
monitoring of local profiles; however, more improvements are needed. We found SSA
could improve its profile certification process by obtaining nonuse information about
profiles. Additionally, SSA needs to develop a secondary UserID control policy that is
clear, concise, and consistent.

AGENCY PROGRESS TO IMPROVE ITS MANAGEMENT AND MONITORING OF
PROFILES

SSA made significant improvements regarding its management and monitoring of local
profiles. During its work on the FY 2009 Financial Statement Audit, 12
PricewaterhouseCoopers, LLP found that SSA had approximately 3,500 local profiles
and 4,600 corporate profiles. In SSA’s FY 2009 Performance and Accountability
Report, the Agency described a significant deficiency identified by the OIG that related
to weaknesses in controls over information security. 13

In August 2010, the Agency’s local profile inventory had decreased to approximately
1,400, and corporate profiles increased to about 5,700. SSA decreased the local
profiles by converting them to corporate status or deleting local profiles no longer
needed. Part of the increase in the number of corporate profiles was due to the
Agency’s efforts to lock down its local profiles and change the ownership status from
local to corporate. From August 27, 2009 to August 23, 2010, SSA reduced the number
of local profiles by about 60 percent.

Additionally, the Office of the Chief Information Officer plans to announce in
Calendar Year 2011 a new policy that will decrease the number and restrict the use of
local profiles. We believe such a strategy would greatly mitigate the concerns identified
in this report. In addition, the Office of the Chief Information Officer is leading an
Agency workgroup to recommend revised policy and entity-wide procedures to govern
the administration and review of all production security profiles by September 2011. We
recommend that the Agency continue with its plans to reduce the number and restrict
the use of local profiles.

12
     SSA’s FY 2009 Performance and Accountability Report, November 2009.
13
     Id. at 43.
Page 5 - The Commissioner


While we commend the Agency for taking these actions, improvements are still needed.
The following findings contain recommendations needed to improve SSA’s
management of local profiles. Furthermore, to the extent that any of the conditions
identified in the following findings are applicable to the management of corporate
profiles, SSA should consider similar corrective action. We found the Agency could
improve its profile certification process by obtaining nonuse information about local
profiles. Additionally, SSA needs to ensure consistency in its policies related to
assigning local profiles to secondary UserIDs.

NONUSE OF LOCAL PROFILES, DATASETS, AND USERIDS

Adhering to the principles of least privilege and need to know helps reduce the risk of
compromising the confidentiality, integrity, or availability of SSA’s IT resources. One of
the ways SSA enforces compliance with these access control principles is through its
Triennial Certification (TEC) process.

During the TEC process, managers review the profiles (including both corporate and
local) assigned to each of their employees and determine whether the employees have
only those profiles needed to do their jobs. If the managers determine their employees
no longer need a profile, they are supposed to instruct the security officer to remove the
profiles from the employees’ PINs and UserIDs. SSA performed its most recent large-
scoped TEC from June 1 to July 30, 2009. After our fieldwork, the Agency informed us
that it did a smaller-scoped TEC in 2011. We did not confirm the results of the TEC.

To examine the status of nonuse of local profiles, we obtained an IT Resource Usage
Report 14 as of September 2, 2010 from SSA’s Office of Telecommunications and
Systems Operations for 41 local profiles in our sample of 100. Collectively, these
41 profiles granted 385 users access to 944 datasets through UserID accounts. Some
of these 385 users had access to more than 1 of the 41 profiles. We used the data
obtained to determine the nonuse status as of the date the TEC began.

Although SSA conducted its last large-scoped TEC in 2009, we found that some SSA
employees had not accessed their local profiles for at least 1 year before the TEC and
still had not accessed their local profile over 1 year later when we performed our test.
Many datasets linked to the employee’s profile had not been accessed for at least
1 year before the TEC, and these employees still had not accessed the datasets for
over 1 year after the TEC. In addition, we found several resources that users never
accessed.



14
  The eTrust Cleanup report (IT Resource Usage Report) shows a profile’s and UserID’s last date of
access. For any profile or UserID input, the report lists how many days have elapsed since the date of
last usage (Date Referenced column). We used the term “never used” if the profile or UserID did not
have an entry in the Date Referenced column. In these instances, the report showed how many days
have elapsed (Days Unused column) since that resource was registered (Date Loaded column). It is
possible that those profiles we described as “never used” were used before the date in the Date Loaded
column.
Page 6 - The Commissioner


IT Resources with Nonuse Exceeding 1 Year Existed When the 2009 TEC Began

We found periods of nonuse greater than 1 year for a subset of the 41 profiles that
collectively granted access to 944 datasets to 385 users. Table 1 summarizes nonuse
of these profiles, datasets, and users as of the 2009 TEC.

                  Table 1- Summary of Nonuse by Elapsed Timeframes
            Description\Resource Category                       Profiles      Datasets           Users
                                        15
     Not used for at least 3 to 4 years as of
1                                                                   4             282              44
     June 1, 2009 (Includes 4 profiles never accessed)

     Not used for at least 2 to 3 years as of
2                                                                   2              43              26
     June 1, 2009 (Includes 1 profile never accessed)

     Not used for at least 1 to 2 years as of
3                                                                   3              53              21
     June 1, 2009 (Includes 1 profile never accessed)

4    Total Nonuse for at least 1 year                               9             378              91


    The Nonuse of IT Resources Continued to Increase After the 2009 TEC. Table
2 compares the nonuse information as of the 2009 TEC and the September 2010 IT
Resource Usage Report. It shows that 15 months after June 1, 2009, the number of
resources that had elapsed times of at least 1 year had increased. Every profile,
dataset and user count shown in row 1 of Table 2 is included in the counts in row 2. In
every case, if nonuse exceeded 1 year as of the 2009 TEC date, the nonuse continued
for another 15 months.

                       Table 2- Comparison of Nonuse Elapsed Time
          Description\Resource Category                      Profiles       Datasets           Users
     Number per Resource Category not used for               9 of 41        378 of 944       91 of 385
1
     at least 1 year as of June 1, 2009 (TEC)              (22 percent)    (40 percent)     (24 percent)
     Number per Resource Category not used for
                                                             14 of 41       600 of 944       153 of 385
2    at least 1 year as of as of September 2, 2010
                                                           (34 percent)    (64 percent)     (40 percent)
     (IT Resource Usage Report)

   Some IT Resources Had Never Been Accessed. Table 3 compares IT resources
never accessed as of the 2009 TEC and the September 2010 IT Resource Usage
Report. The Table shows an increase in the number of resources never accessed
during the 15 months after June 1, 2009.




15
  The registration date for the four profiles never accessed was June 7, 2005, or almost 4 years before
the 2009 TEC start date. The creation dates for these four profiles are earlier than June 7, 2005, so the
nonuse period for these four profiles could be even longer than 4 years.
Page 7 - The Commissioner


               Table 3- Comparison of Never Used Time Greater Than 1 Year
           Description\Resource Category                   Profiles      Datasets          Users
   Number per Resource Category never used                  6 of 41       294 of 944     64 of 385
 1
   for at least 1 year as of June 1, 2009 (TEC)           (15 percent)   (31 percent)   (17 percent)
   Number per Resource Category never used
                                                            7 of 41       443 of 944     101 of 385
 2 for at least 1 year as of as of September 2,
                                                          (17 percent)   (47 percent)   (26 percent)
   2010 (IT Resource Usage Report)

During the TEC, we believe employees who have not used their profiles or accessed
datasets within their profiles for at least 1 year should have their access
needs reviewed. Although we state a nonuse period of at least 1 year as a basis for
initiating a review, the Agency should determine what constitutes a nonuse period as a
basis for review. Allowing employees access to data not needed for their job
responsibilities increases the risk of compromising the confidentiality, integrity, and
availability of SSA’s data.

We recommend SSA periodically review the IT Resource Usage Report to identify
individuals whose periods of non-access warrant further review for continued access.
Based on management’s review of the IT Resource Usage Report, management could
authorize SO to modify or revoke access, if needed, to comply with the access control
principles of least privilege and need to know.

INCONSISTENCIES IN SECONDARY USERID CONTROL POLICIES AND
PROCEDURES

Our sample of 100 local profiles included 41 that granted access to datasets for
384 users. 16 We reviewed 34 of these 41 profiles and found 29 that granted 172 users
update or greater access to datasets through primary UserIDs. 17 The Agency’s ISSH 18
states, “Update or greater access is accomplished via a user approved secondary
UserID which is activated only for the period needed, and this activity is audited.”

The policies in the ISSH 19 pertain to all SSA employees and contractors. The ISSH
does not distinguish between local or corporate profiles. We identified 29 profiles where
SSA did not comply with its ISSH policy 20 because users’ profiles were not assigned to
a secondary UserID. By not assigning a secondary UserID, the Agency had limited
16
  The difference of 1 between the 384 users and the 385 users on pages 5 through 7 and Appendix C
was due to a timing difference. The profiles had 384 users for the data received in May 2010 and 385
users for the data received in September 2010.
17
  Of the five remaining profiles, one had been deleted and nonuse data was not available for six users.
We found 1 profile where 2 users properly used the secondary UserID and the other 3 granted 32 users
read-only access to datasets, so no secondary UserIDs were needed.
18
     SSA ISSH, supra, Section 2.3, Policy at page 9.
19
     SSA ISSH, supra, Section 1.1, Overview of IT Security at page 5.
20
     SSA ISSH, supra, Section 2.3, Policy at page 9.
Page 8 - The Commissioner


ability to monitor the users’ activities and therefore the users could make unwarranted
or erroneous changes to SSA’s data.

These 29 profiles were issued by 6 components. We asked representatives from each
component why they did not use the secondary UserID process. For 28 of the
29 profiles, the representatives stated that the secondary UserID control process did not
apply or its use would hinder productivity. The representative for the remaining profile
stated that the profile no longer granted update or greater access.

Our review of SSA’s secondary UserID policies and procedures identified conflicting
scopes and undefined terminology that may have contributed to inconsistent
compliance with secondary UserID policy. For example, SSA’s ISSH, Chapter 2,
provides limited high-level secondary UserID policy. 21 ISSH, Appendix I, 22 provides
additional guidance; however, it contradicts Chapter 2. Chapter 2 requires that
individuals granted update or greater access use a secondary UserID. 23 Appendix I
restricts the use of the secondary UserID to programmers granted update access to
production datasets via Standardized Production Profiles. 24 In addition, neither
Chapter 2 nor Appendix I defines production datasets or Standardized Production
Profiles. Appendix I does provide a link to the SSPP Intranet home page for readers to
find the secondary UserID procedures.

We found five pages on SSA's Intranet that provided additional secondary UserID
policies and procedures. We determined the policies and procedures used different and
undefined terms to describe the scope and application of the secondary UserID
process; used different names for the secondary UserID; and disagreed on the type of
access (full versus emergency) and duration of the emergency access required for
assigning secondary UserIDs.

Based on our findings, we believe the Agency should resolve the inconsistencies
among its policies and procedures and better describe and define the secondary UserID
control policy, standards, and procedures. We recommend SSA develop a secondary
UserID control policy that is clear, concise, and consistent.




21
     SSA ISSH, supra, section 2.3, at page 9.
22
     SSA ISSH, Appendix I, Systems Access Security Administration Software, pages I-3 through I-4.
23
     SSA ISSH, supra, section 2.3, at page 9.
24
     SSA ISSH, supra, Appendix I, Systems Access Security Administration Software, section E at page I-3.
Page 9 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Controlling and limiting access to the Agency’s information systems and resources is
the first line of defense in ensuring the confidentiality, integrity, and availability of the
Agency’s information resources. Lack of adequate access controls compromises the
completeness, accuracy, and validity of the information in the system.

In our review of SSA’s process for managing and monitoring nonfinancially significant
local profiles, nothing came to our attention that compromised the security of the
Agency’s information; information systems; personnel; or other resources, operations,
or assets. Although the population of local profiles decreased from 2009 to 2010 and
the Agency plans to decrease them further, any mismanagement of these profiles could
present an opportunity for those knowledgeable of access control vulnerabilities to
compromise SSA data. We believe the possibility of a compromise will diminish if SSA
implements its plans to decrease the number, and restrict the use, of local profiles. In
addition, we did identify some areas that needed improvement.

As such, we recommend that the Agency:

1. Continue with its plans to reduce the number, and restrict the use, of local profiles.

We recommend the following strategies to improve SSA’s managing and monitoring of
local profiles. Furthermore, to the extent that any of the conditions identified in this
report are applicable to the managing and monitoring of corporate profiles, SSA should
consider similar corrective action. As such, we recommend SSA:

2. Periodically review the IT Resource Usage Report to identify individuals whose
   periods of non-access would warrant further review for continued access. Once
   reviewed, modify or revoke access, if needed, to comply with the access control
   principles of least privilege and need to know.

3. Develop a secondary UserID control policy that is clear, concise, and consistent.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
FY       Fiscal Year
ID       Identification
ISSH     Information Systems Security Handbook
IT       Information Technology
OIG      Office of the Inspector General
PIN      Personal Identification Number
SSA      Social Security Administration
SSPP     Standardized Security Profile Project
TEC      Triennial Certification
UserID   User Identification
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Obtained and reviewed pertinent Federal criteria governing access controls.

•   Obtained and reviewed pertinent Agency policy and procedures governing the
    authorization, creation, modification, and usage of local profiles.

•   Interviewed key staff from components reporting to the Deputy Commissioner for
    Systems.

•   Met with management in the Office of the Chief Information Officer to discuss profile
    security policies and procedures.

•   Obtained extracts from the Agency’s Office of Telecommunications and Systems
    Operations that contained 2,561 local profiles on the Profile Registry reports as of
    March 16 and August 23, 2010.

•   Compared the March 16, 2010 extract to the extract obtained by
    PricewaterhouseCoopers, LLP on August 27, 2009.

•   Selected a random sample of 100 local profiles from the March 16, 2010 Profile
    Registry report (see Appendix C).

We conducted our audit between January and November 2010 in Baltimore, Maryland.
We found the data used for this audit to be sufficiently reliable to meet our audit
objective. The primary entity audited was the Office of Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                       Appendix C

Sampling Methodology
To accomplish our sampling objective, we:

•   Obtained a data extract from the Agency of 2,561 local profiles as of
    March 16, 2010.

•   Excluded from possible testing 1,028 local profiles in existence as of March 16, 2010
    that
       o PricewaterhouseCoopers, LLP tested in Fiscal Year 2009;
       o appeared to access non-production datasets (names contained such terms as
          integration, test, or training);
       o did not access any datasets; and,
       o security officers had not assigned to any users.

•   Selected a random sample of 100 local profiles from the audit population of 1,533.

•   Tested one local profile that granted user identification (UserID) access to datasets
    from the Human Resources Management Information System.

•   Obtained a TOP SECRET WHOHAS report for each profile in our sample as of
    May 24, 2010. This report contains various information about each profile, such as
    profile creation date, profile ownership, datasets assigned, the dataset access level
    allowed, and UserIDs granted access.

Based on our analysis of the TOP SECRET data, we determined that 41 of the
100 profiles in existence as of March 16, 2010 had been accessible to 384 users as of
May 24, 2010.

Because of time constraints, we could not test all 100 profiles in the sample. Instead,
we tested the 41 profiles that were still granting access to datasets as of May 24, 2010.
The remaining 59 profiles had been modified since our March 16, 2010 data extraction
and no longer granted users access to datasets.

From August through September 2010, we queried the TOP SECRET Administrator’s
security administration database to determine which of these 41 profiles were still in
local profile status and how many users had secondary UserIDs.

On September 2, 2010, we obtained a listing from the TOP SECRET eTrust Cleanup
utility for the 41 profiles, 944 datasets and the 385 users to determine the number of
elapsed days since a profile was last accessed, a dataset was last accessed via that
profile, and a user last accessed that profile.
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:      June 24, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s
           Managing and Monitoring of Local Profiles” (A-14-10-20106)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S MANAGING AND
MONITORING OF LOCAL PROFILES” (A-14-10-20106)

Recommendation 1

Continue with its plans to reduce the number, and restrict the use, of local profiles.

Response

We agree.

Recommendation 2

Periodically review the IT Resource Usage Report to identify individuals whose periods of
non-access would warrant further review for continued access. Once reviewed, modify or
revoke access, if needed, to comply with the access control principles of least privilege and
need to know.

Response

We agree.

Recommendation 3

Develop a secondary UserID control policy that is clear, concise, and consistent.

Response

We agree.




                                               D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division
   Grace Chi, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Alan Lang, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-20106.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
